  AIRLINE INDUSTRY METRICS
       Trends on Demand and Capacity,
        Aviation System Performance,
Airline Finances, and Service to Small Airports

           Number: CC-2004-006
        Date Issued: January 8, 2004
            U.S. Department of
                                                                     Memorandum
            Transportation
            Office of the Secretary
            of Transportation
            Office of Inspector General

Subject:    INFORMATION: Airline Industry Metrics                                  Date:   January 8, 2004


  From:     Kenneth M. Mead                                                     Reply to   JA-50 x69970
                                                                                Attn of:
            Inspector General
    To:     The Secretary
            Federal Aviation Administrator
            Congressional Recipients

            Attached is the fifth in a series of periodic updates to our airline industry metrics
            report.1 Over the past 3 years, the airline industry has faced a number of major
            challenges, including: September 11, 2001 terrorist attacks, the war in Iraq,
            Severe Acute Respiratory Syndrome (SARS) epidemic, and the weakness in
            business travel that has persisted since early 2001. The attached metrics were
            developed as a means for monitoring airline industry trends relating to domestic
            system demand and capacity, performance, finances, and air service at small
            airports. Some of the more important indicators of the changes in air travel
            during this period include:

                • Reduced Costs Drive Financial Improvements, but Some Network
                  Carriers Still Report Significant Operating Losses. The industry has
                  had some success on the financial front, with increases in average air fares,
                  aircraft load factors, and operating revenues – while at the same time
                  reducing operating expenses. As a result, the break-even load factors (the
                  average percent of paying passengers needed on all flights to cover airline
                  costs) have continued to decline. In the quarter ending September 2003 –
                  and for the first time since the third quarter of 2000 – actual load factors
                  for the carriers as a group exceeded the break-even point (78 percent
                  actual versus 75 percent break-even). In contrast, during the quarter
                  following the terrorist attacks, there was a 23 point differential between
                  actual load factors (66 percent) and break-even levels (89 percent).

           1 Data supporting the metrics in this report are from a variety of sources and reflect the most current
             information available at the time this report was prepared. Full Fourth Quarter 2003 data was not yet
             available.

            CC-2004-006
                                                                                      2


      The differential between break-even and actual load factors varies
      markedly within the group of carriers. For example, Southwest reports
      break-even load factors of 61 percent with actual load factors of
      71 percent. In contrast, US Airways’ break-even level of 83 percent still
      exceeds actuals (77 percent) by 6 percent.

      While all of the airlines have been hurt by the economic downturn and
      lingering terrorism concerns, the severity of the impacts and the airlines’
      ability to weather the financial consequences have not been felt uniformly
      within the industry. For example, both Southwest and JetBlue have
      reported a profit in every quarter since the downturn in the first quarter of
      2001, while several network carriers, with their high cost structures, have
      reported losses that range in the hundreds of millions. In the third quarter
      of 2003, both Southwest and JetBlue continued to report profits—
      $185 million and $54 million, respectively—while Continental, American,
      US Airways, and Delta all reported losses on domestic operations ranging
      from $54 million to $175 million. During this period, United reported a
      modest operating profit of $1 million on domestic operations.

   • Scheduled Flights, Available Seats, and Enplanements Continued to
     Decline. In the first 10 months of 2003, scheduled flights were down
     11 percent from the same period in 2000, available seats were down
     13 percent, and domestic revenue passenger enplanements were 15 percent
     below 2000 levels. The number of scheduled flights, available seats, and
     enplanements during the first 10 months of 2003 represented reductions
     from 2002 levels, with decreases of 2 percent, 4 percent, and 3 percent,
     respectively.

      The capacity reductions and decreases in passenger enplanements has
      occurred, in part, as airlines continue their efforts to “right size” their fleets
      to existing markets, with the number of flights using regional jets
      increasing 140 percent between December 2000 and December 2003. In
      contrast, flights using large jets have declined 19 percent during this
      period.

   • Available Capacity Still Down at Most Airports. The rebound in
     offered capacity among the nation’s airports continues to vary
     significantly. For example, only three of the nation’s largest airports saw
     an increase in scheduled passenger seats in the period from
     December 2000 through December 2003—Fort Lauderdale +16 percent,
     Kennedy +7 percent, and Las Vegas +1 percent. All other large airports
     experienced varying levels of decline in scheduled passenger seats during
     this period. The three worst declines were at St. Louis -59 percent,
     Pittsburgh -34 percent, and San Francisco -28 percent. In 2003, annual

CC-2004-006
                                                                                                      3


       scheduled passenger seats at the nation’s largest airports were down
       collectively nearly 4 percent from 2002.

       The smallest airports (non-hub), which have experienced a
       disproportionate reduction in air service as compared to larger-sized
       airports over the past 5 years, continued to lose scheduled service between
       2002 and 2003. During this period, scheduled service to non-hub airports
       declined by nearly 3 percent. Overall, the non-hub airports have lost
       19 percent of their scheduled air service since 1998.

   • Mainline Operations Account for Fewer Available Passenger Seats.
     Low-fare and other airlines’ share of the domestic market has continued
     to grow in comparison to the mainline operations of the network carriers.
     Between December 2000 and December 2003, the market share of low-
     fare and other airlines (including regional and commuter operators flying
     on behalf of the network carriers) increased 11 percentage points as
     measured by available passenger seats. In total, service offered by low-
     fare and other airlines accounted for 46 percent of all domestic air service,
     as measured by available passenger seats.

   • Delays at Some Airports are Increasing. Although systemwide delays
     and cancellations for the first 10 months of 2003 (441,792) are less than
     one-half the number of delays for the same period in 2000 (909,880),
     some airports are beginning to experience increases over the past year.
     For example, Chicago O’Hare reported 44,230 arrival delays during the
     first 11 months of 2003, a 3-percent increase over the 43,130 reported
     during the same period in 2002. In some months, however, the number of
     delays was significantly greater.2

       Federal Aviation Administration (FAA) officials also cite growing
       concerns with the airspace in the New York City area, with growth in
       regional jets, general aviation, new low-fare service, and returning
       domestic and international demand. In the first 11 months of 2003, for
       example, the number of arrival delays at Newark (19,817) exceeded 2002
       levels (14,855) by more than 33 percent.

       Although traffic levels remain well below the peaks experienced in 2000,
       FAA needs to closely monitor traffic at major hubs as economically

  2   According to FAA, the problems at O’Hare stem from aggressive scheduling by the airlines as
      American has shifted many of its prior St. Louis connections to Chicago and United has
      responded competitively by scheduling head-to-head operations. FAA also attributes United’s
      use of regional jets to match American’s schedule with further reductions in airport capacity, as
      regional jets require greater separation times between operations than do larger jets.


CC-2004-006
                                                                                                                       4


       driven changes in airline operations are likely to pose new challenges to
       airports, en route airspace, and air traffic control. The effects of
       congestion in major hubs are likely to cascade into the rest of the system
       and FAA should proactively approach solutions to preempt the return of
       the same debilitating conditions experienced by system users in 2000.
       For example, airlines are now required to report causes of delays, and
       these data should be monitored to determine where to best focus
       resources. Additionally, capacity benchmarks that were developed in
       2001 should be revisited to ensure that they reflect current operating
       conditions.

The attachment to this memorandum contains graphics and narrative that
illustrate and discuss these and other changes in the airline industry. The graphics
are listed below by category


  AIR SERVICE DEMAND AND CAPACITY

      Figure 1: Passenger Enplanements .........................................................................8

      Figure 2: Capacity versus Demand .........................................................................8

      Figure 3: Actual Flight Operations .........................................................................8

      Figure 4: Larger Airlines Actual Arrivals...............................................................8

      Figure 5: Scheduled Capacity .................................................................................8

      Figure 6: Regional Differences at All Airports.......................................................8

      Figure 7: Large Airports .........................................................................................9

      Figure 8: Length of Flight.......................................................................................9

      Figure 9: Short Haul Flights by Type of Airline.....................................................9

      Figure 10: Airline Market Share .............................................................................9

      Figure 11: Market Share of Low-Fare Service .....................................................10

      Figure 12: Low-Fare Service Growth ...................................................................10

      Figure 13: Type of Aircraft...................................................................................10

      Figure 14: Regional Jets at Large Airports ...........................................................10

      Figure 15: Market Share by Aircraft Type ...........................................................11



CC-2004-006
                                                                                                                              5


  AIR SYSTEM PERFORMANCE...............................................................................11

      Figure 16: Arrival Delays. ....................................................................................11

      Figure 17: Departure Delays .................................................................................11

      Figure 18: Cancellations .......................................................................................11

      Figure 19: Percent of Flights Arriving Late..........................................................11

      Figure 20: Percent of Flights Departing Late .......................................................11

      Figure 21: Length of Arrival Delays.....................................................................12

      Figure 22: Length of Departure Delays ................................................................12

      Figure 23: Arrival Delays by Airport....................................................................12

  AIRLINE FINANCES................................................................................................12

      Figure 24: Business and Leisure Travel................................................................12

      Figure 25: Air Fares for Network Airlines ...........................................................12

      Figure 26: Network Airline Yield.........................................................................12

      Figure 27: Passenger Load Factors .......................................................................13

      Figure 28: Individual Airline Load Factors ..........................................................13

      Figure 29: Revenues versus Expenses ..................................................................13

      Figure 30: Selected Network and Low-Fare Airlines Operating
      Profit or Loss..........................................................................................................13

      Figure 31: Cost Per Gallon for Jet Fuel ................................................................13

      Figure 32: Debt to Investment Ratio.....................................................................14

      Figure 33: Debt to Investment Ratio by Airline ...................................................14

      Figure 34: Airport and Airway Trust Fund...........................................................14

  AIR SERVICE AT SMALL AIRPORTS....................................................................14

      Figure 35: Non-Hub versus Larger Airports.........................................................14

      Figure 36: Regional Differences at Non-Hubs .....................................................14

      Figure 37: Access to Large Airports.....................................................................14

      Figure 38: Type of Aircraft at Non-Hub Airports ................................................15

CC-2004-006
                                                                                                                  6


      Figure 39: Airline Market Share at Non-Hubs .....................................................15

      Figure 40: Essential Air Service ...........................................................................15


If you have any questions or if I can be of further assistance, please feel free to
contact me at (202) 366-1959, or Mark R. Dayton, Assistant Inspector General
for Competition and Economic Analysis, at (202) 366-9970.

Attachment

                                                       #




CC-2004-006
                                                              AIRLINE INDUSTRY METRICS
This is the fifth in a series of periodic updates to our airline industry metrics. At the
beginning of 2000, domestic air travel in the United States was at an all time high, with
the Federal Aviation Administration (FAA) reporting record numbers of commercial
flights and passengers. Yet, such demand was not without consequences, as it placed
enormous strains on the existing national aviation system—leading to the highest number
of flight delays and cancellations ever reported by the major airlines. All of this was to
change, however, as a series of events rocked the airline industry, including: a persistent
slowdown in economic growth, decline in high-fare business travelers, the terrorist
attacks of September 11, 2001, the March-April 2003 war in Iraq, and the Severe Acute
Respiratory Syndrome (SARS) epidemic. Chart A illustrates the corresponding impact
each of these events had on scheduled domestic flights between January 2000 and
January 2004.


                      Chart A: Percent Change in Scheduled Domestic Flights at All Airports
                            Between January 2000 and January 2004 (Base Year 1999)

                                                3 Qtrs of                                                          9/11                                                                               Iraq War
                    8%                          Negative                                                        T errorist                                                                               and
                                                  GDP                                                           Attacks                                                                                 SARS
                    4%

                    0%
      Percentage




                   -4%
                                                        Business T ravel
                                                       Begins to Decline
                   -8%

                   -12%
                                                                       Flight Schedules Reach                                                                      Flight Schedules Down
                   -16%
                                                                       Lowest Point at -15%                                                                      -9% to -11% Summer '03
                   -20%
                                                     Jul-00
                                                              Sep-00




                                                                                                           Jul-01
                                                                                                                    Sep-01




                                                                                                                                                                  Jul-02
                                                                                                                                                                           Sep-02




                                                                                                                                                                                                                         Jul-03
                                                                                                                                                                                                                                  Sep-03
                          Jan-00
                                   Mar-00
                                            May-00




                                                                       Nov-00
                                                                                Jan-01
                                                                                         Mar-01
                                                                                                  May-01




                                                                                                                             Nov-01
                                                                                                                                      Jan-02
                                                                                                                                               Mar-02
                                                                                                                                                        May-02




                                                                                                                                                                                    Nov-02
                                                                                                                                                                                             Jan-03
                                                                                                                                                                                                       Mar-03
                                                                                                                                                                                                                May-03




                                                                                                                                                                                                                                           Nov-03
                                                                                                                                                                                                                                                    Jan-04




     Source: FAA Data



Based on data obtained from the U.S. Department of Transportation (DOT), FAA,
Bureau of Transportation Statistics (BTS) and Air Transport Association (ATA), the
Office of Inspector General has developed 40 metrics (see Figures 1 through 40, pages 8
through 15) for monitoring airline industry trends relating to domestic system demand
and capacity, performance, finances, and air service at small airports. Although subject
to change, these metrics provide decisionmakers with past, present, and future indicators
of domestic service levels and the general state of the airline industry.




                                                                                                                                                                                                                                                             1
                     SUMMARY OF AIRLINE INDUSTRY METRICS

I.       Air Service Demand and Capacity
         ü AIR TRAFFIC DEMAND: The number of air travelers continues to show some
           improvement from the sharp declines following September 11, 2001 (down 34 percent)
           and the war in Iraq. Nevertheless, passenger enplanements for October 2003 still
           remained down 13.6 percent from October 2000.1 Enplanements were also down from
           last year, with the number of passengers declining 3 percent during the first 10 months
           of 2003, as compared to the same period in 2002. [Figure 1]

         ü CAPACITY VERSUS DEMAND: Actual domestic capacity as measured in available seat
           miles (ASMs) increased after September 11, 2001, at a faster rate than passenger
           demand as measured by revenue passenger miles (RPMs)—especially during the spring
           and early summer of 2002. However, during the latter part of 2002 and much of 2003,
           the reverse appeared to be the case as airlines brought capacity in line with travel
           demand. As of October 2003, passenger demand (RPMs) and actual capacity (ASMs)
           were down 7 percent and 11 percent, respectively, from October 2000. [Figure 2]

         ü FLIGHT OPERATIONS: FAA’s Air Route Traffic Control Centers reported handling
           nearly the same number of flight operations in January 2003 as in January 2000.2 This
           recovery, however, was short-lived, as the war in Iraq caused a renewed drop-off in
           flights. Although the numbers improved somewhat during the summer, they were still
           down 3 percent in October 2003 from October 2000. [Figure 3]

         ü FLIGHT ARRIVALS: The much anticipated recovery has not been uniform among the
           nine largest airlines as shown roughly by flight arrivals. Only Alaska Airlines and
           Southwest Airlines reported increases in the number of flight arrivals (i.e., 6 percent)
           between October 2000 and October 2003. In comparison, the other seven airlines
           reported declines ranging from 6 percent for America West Airlines to 41 percent for
           US Airways. [Figure 4]

         ü AIRLINE SCHEDULES—FALL 2003: Although the number of flights offered in airline
           schedules increased in 2002 after initially dropping in the months following
           September 11, 2001, this trend reversed in August 2002. The war in Iraq worsened this
           reversal so that by May 2003 the number of scheduled flights nearly equaled the lows
           reached in November 2001. However, flight schedules began to recover in the fall of
           2003 so that in October, November, and December, the number of scheduled flights
           exceeded 2002 levels. [Figure 5]



     1
          Due to the sizable impact that the terrorist attacks had on domestic flight service during the latter part of
          2001, we used 2000 as the base year in many of our metrics.
     2
          Includes both scheduled and non-scheduled (for example, general aviation and military) air traffic.

                                                                                                                      2
    ü REGIONAL DIFFERENCES: When comparing all airports, the northeast region continues
      to experience the largest decline in air service as compared to other parts of the country.
      For example, between December 2000 and December 2003, the northeast experienced a
      19 percent drop in scheduled available passenger seats, versus the midwest
      (-13 percent), west (-11 percent), and south (-8 percent). [Figure 6]

    ü AIRPORT CAPACITY: The rebound in offered capacity among the nation’s airports
      continues to vary significantly. For example, only three of the nation’s largest airports
      saw an increase in scheduled passenger seats in the period from December 2000
      through December 2003—Fort Lauderdale +16 percent, Kennedy +7 percent, and Las
      Vegas +1 percent. All other large airports experienced varying levels of decline during
      this period. The 10 worst declines were: St. Louis (-59 percent), Pittsburgh
      (-34 percent), San Francisco (-28 percent), Honolulu (-26 percent), Boston
      (-26 percent), Los Angeles (-23 percent), LaGuardia (-20 percent), Dulles (-18 percent),
      Reagan National (-18 percent), and Newark (-15 percent). [Figure 7]

    ü LOSS OF SHORT HAUL AIR SERVICE: For scheduled flights of less than 250 miles, one
      in five (or 20 percent) was dropped between December 2000 and December 2003. In
      comparison, flights of 500 miles or more experienced far less change in service levels.
      Moreover, during this period, the network airlines were more likely to cut their short
      haul flights, which declined 43 percent, than either the low-fare (-10 percent) or other
      smaller airlines (-16 percent).3 [Figures 8 and 9]

    ü LOW-FARE AND OTHER AIRLINES GAIN MARKET SHARE: In contrast to the mainline
      operations of network airlines, many low-fare and other airlines — including regional
      and commuter operators flying on behalf of the network carriers — have continued to
      expand their market shares (as measured in scheduled available passenger seats),
      increasing approximately 6 percentage points for low-fare carriers and 4 percentage
      points for other carriers, between December 2000 and December 2003. Consequently,
      the mainline operations of the network carriers have seen their share of domestic air
      service decline from 64 percent to 54 percent during this same period. [Figure 10]

    ü MARKET SHARE AND GROWTH OF LOW-FARE AIRLINES: Of the total number of
      passenger seats scheduled by the nine low-fare airlines, Southwest Airlines represented
      approximately 64 percent in December 2003. Southwest Airlines also provided
      37 percent of the total growth in low-fare service over the last 5 years, followed by
      JetBlue Airways (16 percent), Delta Song (13 percent), American Trans Air



3
     Network airlines include American Airlines, Alaska Airlines, America West Airlines, Continental Airlines,
     Delta Air Lines, Northwest Airlines, United Airlines, and US Airways.
     Low-fare airlines include AirTran Airways, American Trans Air, Delta Song, Frontier Airlines, JetBlue
     Airways, National Airlines, Pan American Airways, Southwest Airlines, Spirit Airlines, Sun Country, and
     Vanguard Airlines. However, Vanguard Airlines and National Airlines ceased operations in July and
     November 2002, respectively.
     Other airlines include smaller regional, commuter, and national airlines (many of which are affiliated with
     the major network carriers).

                                                                                                               3
         (11 percent), AirTran Airways (9 percent), Frontier Airlines (7 percent), and Spirit
         Airlines (6 percent).4 [Figures 11 and 12]

      ü GROWTH IN REGIONAL JET (RJ) FLIGHTS: Another significant development involves
        the phenomenal growth in RJ flights.5 Scheduled flights involving RJs increased
        140 percent (from 88,474 to 212,126) between December 2000 and December 2003.
        Flights involving other aircraft types experienced far less growth or sharp declines,
        including piston (+10 percent), large jets (-19 percent), and turboprop (-41 percent).
        Overall, the portion of scheduled flights involving RJs has grown from 10 percent to
        25 percent between December 2000 and December 2003. [Figures 13 and 15]

      ü RJ FLIGHTS AT LARGE AIRPORTS: RJs are also assuming a larger share of the total
        number of scheduled flights at the 31 largest airports. Those airports with the highest
        percentages of RJ flights as of December 2003 are: Cincinnati (72 percent), Dulles
        (44 percent), Chicago O’Hare (41 percent), Houston (39 percent), Newark (38 percent),
        St. Louis (36 percent), Dallas-Ft. Worth (35 percent), Salt Lake City (34 percent),
        LaGuardia (30 percent), and Reagan National (29 percent). [Figure 14]

II. Air System Performance
      ü FLIGHT DELAYS AND CANCELLATIONS: For most of the last 3 years, flight delays and
        cancellations have remained well below levels reached in 2000.6 For example, between
        October 2000 and October 2003, gate arrival delays were down 54 percent (from
        75,543 to 34,422), while cancellations dropped 76 percent (from 7,977 to 1,905).
        Likewise, gate departure delays were down approximately 60 percent (from 63,742 to
        25,794). [Figures 16, 17, and 18]

      ü OTHER INDICATORS OF DELAYS: Other indicators of flight delays were also down in
        October 2003 from October 2000, including the percentage of flights arriving late (from
        23 percent to 13 percent), the percentage of flights departing late (from 19 percent to
        10 percent), the average length of gate arrival delays (from 49 minutes to 43 minutes),
        and the average length of gate departure delays (from 52 minutes to 47 minutes).
        [Figures 19, 20, 21, and 22]

      ü DELAYS AT SELECTED AIRPORTS: Although most delay indicators remain down,
        especially when compared to the highs reported in 2000, some airports began to
        experience increases over the last year. For instance, Chicago O’Hare and Newark
        reported increases of 3 percent and 33 percent, respectively, in the number of arrival
        delays during the first 11 months of 2003 as compared to the same period in 2002. In


  4
       Beginning in August 2003, FAA data included America West as both a network and low-fare carrier. To
       prevent double counting, we included America West as a network carrier for only those metrics citing
       either network or low-fare data.
  5
       For this analysis, we defined RJs as those jet aircraft seating from 30 to 80 passengers.
  6
       Although all flight delay indicators experienced increases during the summer of 2003, they still remained
       far below 2000 levels.

                                                                                                               4
          comparison, Dallas-Ft. Worth, Atlanta, and San Francisco experienced declines in
          arrival delays of 5 percent, 18 percent, and 28 percent, respectively. [Figure 23]

III. Airline Finances
       ü BUSINESS AND LEISURE TRAVEL: The drop in higher-fare business travelers, which
         began before September 11, has especially hurt the airlines. At the five busiest
         domestic airports, as measured by the number of arriving and departing passengers, the
         percent of passengers traveling on first, business, or unrestricted coach tickets declined
         from 21 percent in the first quarter of 2000 to 13 percent in the first quarter of 2003.7
         [Figure 24]

       ü AIR FARES AND YIELDS: The decline in high-fare business travel, coupled with an
         overall drop in average air fares, has significantly affected yields for the network
         airlines. Between October 2000 and October 2003, for instance, the average air fare for
         a 1,000-mile flight dropped from $151 to $124, resulting in an 18-percent decline in
         network airline yields from passenger traffic. Yet, one potential sign of recovery in
         yields was a small increase in average air fares in July, August, September, and
         October 2003 from the prior year. [Figures 25 and 26]

       ü AIRLINE LOAD FACTORS: Because of continuing efforts by airlines to constrain
         capacity and the gradual return of passengers in response to fare discounting, aircraft
         load factors for the largest airlines reached 78 percent for the quarter ending
         September 2003—surpassing the highest level achieved during any period in 2000.
         Moreover, the gap between actual and break-even load factors (the average percent of
         paying passengers needed on all flights to cover airline costs) continued to shrink from
         a high of 23 percentage points for the quarter following the terrorist attacks, to plus
         3 percentage points for the quarter ending September 2003 (78 percent actual versus
         75 percent break-even). Yet, two of the nine largest airlines continued to have negative
         gaps, including: US Airways—6 percentage points (83 versus 77), and American
         Airlines—3 percentage points (79 versus 76). [Figures 27 and 28]

       ü AIRLINE REVENUES AND EXPENSES: Airline operating revenues were down more than
         expenses in 2001 and 2002. For the quarter ending September 2003 as compared to the
         same period in 2000, operating revenues declined nearly 17 percent, whereas operating
         expenses decreased only 12 percent.8 One factor hampering the network airlines’
         efforts to reduce expenses has been the increase in average labor costs, which rose
         25 percent between the second quarters of 2000 and 2003. Another factor was the rise
         in jet fuel costs, which grew an average of 24 percent during the first 9 months of 2003,
         versus the same period in 2002. [Figures 29 and 31]



   7
        Business fares include all restricted and unrestricted first class and business class fare codes, and all
        unrestricted coach fare codes. Leisure fares include only restricted coach fares.
   8
        Airline operating revenue was also affected by a sharp drop in domestic mail shipments, which declined
        65 percent during the first 10 months of 2003, versus the same period in 2000.

                                                                                                                5
       ü AIRLINE OPERATING PROFITS AND LOSSES: Operating profits on domestic operations
         tended to vary among the airlines, with the low-fare carriers experiencing generally
         higher profit levels than many of the network carriers. Overall, Southwest Airlines
         reported $185 million in operating profits during the third quarter of 2003, the highest
         of any airline. In comparison, Delta Air Lines reported the largest loss of $175 million
         during this same period. In addition to Southwest Airlines, those carriers reporting
         significant profits included: Northwest Airlines ($87 million), Alaska Airlines
         ($59 million), JetBlue Airways ($54 million), America West Airlines ($46 million),
         AirTran Airways ($26 million), American Trans Air ($23 million), and Frontier
         Airlines ($22 million). Those reporting losses included: US Airways ($83 million),
         American Airlines ($59 million), and Continental Airlines ($54 million). [Figure 30]

       ü AIRLINE DEBT TO INVESTMENT: Due to large operating losses, airline debt to
         investment ratios climbed from a low of 48 percent in 2000 to a high of 91 percent for
         the quarter ending September 2003.9 Moreover, four of the nine largest airlines have
         debt to investment ratios at 90 percent or greater, including US Airways (93 percent),
         Delta Air Lines (94 percent), American Airlines (102 percent), and United Airlines
         (166 percent). US Airways, which had been at 314 percent at the end of 2002, was able
         to reduce its ratio to 93 percent as a result of unusual gains and accounting adjustments
         associated with the company’s completion of Chapter 11 reorganization. In
         comparison, United Airlines (which remains in Chapter 11) saw its ratio increase from
         108 percent to 166 percent during this period. Debt to investment, in part, measures an
         airline’s ability to finance operations, given fluctuations in demand and revenue.
         [Figures 32 and 33]

       ü AIRPORT AND AIRWAY TRUST FUND: Lower demand and lower ticket prices have
         also reduced tax collections for the Airport and Airway Trust Fund. Before
         September 11, 2001, FAA projected overall collections of $12.6 billion for Fiscal
         Year (FY) 2004. FAA now estimates $9.8 billion in tax collections in FY 2004, a
         drop of more than 22 percent. Current estimates also show that over the next 4 years
         (FY 2005 through FY 2008) Airport and Airway Trust Fund tax revenues are expected
         to be about $12 billion less than projections made in April 2001. [Figure 34]

IV. Air Service at Small Airports
       ü CHANGES IN AIR SERVICE: Over the last 5 years, the smallest airports (non-hubs)
         have experienced deeper cuts in air service than their larger counterparts.10 As of
         December 2003, for instance, non-hub airports saw a 17-percent reduction in scheduled
         available passenger seats from December 1998. This compares to a 3-percent reduction
         for the larger airports. Moreover, airline schedules for January 2004 versus


  9
        DOT publishes debt to total investment ratios in the Major Airline Quarterly Financial Review. Debt is
        defined as long-term debt, capital leases, and advances from associated companies, less unamortized debt
        expenses. Total investment includes all the debt items plus stockholder’s equity.
  10
        We used FAA’s definition of a non-hub airport, which includes those airports having less than 0.05 percent
        of total U.S. enplanements.


                                                                                                                 6
        January 1998 currently project further declines in air service for the non-hub airports
        (-19 percent) in contrast to a small improvement for the larger airports (+1 percent).
        [Figure 35]

     ü REGIONAL DIFFERENCES: Non-hub airports in the northeast and midwest have had far
       larger drops in air service than other parts of the country in the last 3 years. Between
       December 2000 and December 2003, these two regions lost 34 percent and 21 percent,
       respectively, of their scheduled available passenger seats versus an 11 percent decline
       in the south and an 8 percent decline in the west. [Figure 36]

     ü ACCESS TO LARGE AIRPORTS: Non-hub airports also experienced a greater loss of
       direct service to and from the largest airports than did other airports. Non-hub airports
       lost 19 percent of scheduled flights to the largest airports between December 2000 and
       December 2003. In comparison, small, medium, and large airports experienced
       reductions of only 3 percent to 9 percent. [Figure 37]

     ü REGIONAL JET (RJ) GROWTH: Overall, scheduled flights at non-hub airports
       involving RJs increased 161 percent between December 2000 and December 2003. In
       comparison, flights involving other aircraft types experienced either far less growth or
       sharp declines, including piston (+11 percent), turboprop (-30 percent), and large
       jets (-36 percent). [Figure 38]

     ü LOW-FARE SERVICE: Although low-fare airlines are one of the few segments of the
       industry experiencing continued expansion, this growth has not been targeted to non-
       hub airports. Overall, low-fare airlines scheduled service to only 7 of the more than
       400 non-hub airports in December 2003,11 representing approximately 3 percent of the
       total available passenger seats to these airports. In comparison, the network and other
       smaller airlines comprised roughly 17 percent and 80 percent, respectively, of
       scheduled service to non-hub airports. [Figure 39]

     ü ESSENTIAL AIR SERVICE (EAS): In the aftermath of September 11, 2001,
       congressional funding and the number of small communities requesting EAS subsidies
       increased significantly. For example, between FYs 2001 and 2003, funding rose
       126 percent (from $50 million to $113 million), while the number of subsidized
       communities increased 9 percent (from 115 to 125). For FY 2004, the President’s
       budget request called for a return to the $50 million level and proposed significant
       changes in how subsidies are allocated. The pending Consolidated Appropriations Bill,
       however, provides $102 million in FY 2004 EAS funding. [Figure 40]




11
      These data include only those non-hub airports that receive at least one scheduled flight per week.

                                                                                                            7
                                                                                                                                                                                                         Airline Industry Metrics


      Figure 1: Passenger Enplanements                                                                                                                                                                                                                               Figure 2: Capacity vs. Demand
      Percent Change in Revenue Passenger Enplanements from 2000                                                                                                                                                                                                     Percent Change in Available Seat Miles vs. Revenue Passenger
      (ATA Data)                                                                                                                                                                                                                                                     Miles from 2000 (ATA Data)

                      10%                                                                                                                                                                                                                                                                                                                                                                                      Oct '03 RPM
                                                                                                                                                                                                                                                                            10%
                                                                                                                                                                                                                                                                                                                                                                                                                    -7%

                      0%                                                                                                                                                                                                                                                     0%




                                                                                                                                                                                                                                                               Percentage
Percentage




                -10%                                                                                                                                                                                                                                                        -10%


                -20%                                                                                                                                                                                                                                                        -20%

                                                                                                                                                                                                                                                                                                                                                                                                              Oct '03 ASM
                                                                                                                                                                                                                                                                            -30%                                                                                                                                  -11%
                -30%                                                                                                          Sep '01                                                                                        Oct '03
                                                                                                                               -34%                                                                                           -14%
                                                                                                                                                                                                                                                                            -40%
                -40%




                                                                                                                                                                                                                                                                                                                                                                              Jul-02




                                                                                                                                                                                                                                                                                                                                                                                                                                  Jul-03
                                                                                                                                                                                                                                                                                                                                                                                                     Jan-03


                                                                                                                                                                                                                                                                                                                                                                                                                Apr-03
                                                                                                                                                                                                                                                                                                                                                                                            Oct-02




                                                                                                                                                                                                                                                                                                                                                                                                                                                        Oct-03
                                                                                                                                                                                                                                                                                                             Jul-01
                                                                                                                                                                                                                                                                                   Jan-01


                                                                                                                                                                                                                                                                                                  Apr-01




                                                                                                                                                                                                                                                                                                                                 Jan-02


                                                                                                                                                                                                                                                                                                                                                      Apr-02
                                                                                                                                                                                                                                                                                                                        Oct-01
                                                                       Jul-01




                                                                                                                                                       Jul-02




                                                                                                                                                                                                                                   Jul-03
                            Jan-01


                                                       Apr-01




                                                                                                                 Jan-02


                                                                                                                                  Apr-02




                                                                                                                                                                                              Jan-03


                                                                                                                                                                                                                  Apr-03
                                                                                           Oct-01




                                                                                                                                                                           Oct-02




                                                                                                                                                                                                                                                      Oct-03
                                                                                                                                                                                                                                                                                                           Available Seat Miles                                                        Revenue Passenger Miles


             Figure 3: Actual Flight Operations                                                                                                                                                                                                                Figure 4: Larger Airlines Actual Arrivals
             Percent Change in Air Route Traffic Control Center Operations from
                                                                                                                                                                                                                                                               Percent Change in Actual Arrivals by Airline 10/03 vs. 10/00
             2000 (FAA Data)
                                                                                                                                                                                                                                                               (FAA Data)
                        5%
                                                                                                                                                                                                                                                                             30%

                        0%
                                                                                                                                                                                                                                                                             15%            6%              6%
         Percentage




                                                                                                                                                                                                                                                               Percentage




                                                                                                                                                                                                                                                                              0%
                       -5%

                                                                                                                                                                                                                                                                            -15%                                        -6%
                                                                                                                                                                                                                                                                                                                                      -9%
                      -10%
                                                                                                                                                                                                                                                                                                                                                               -20%                     -22%         -23%
                                                                                                                                                                                                                                                                            -30%                                                                                                                                 -24%
                                                                                                                               Sep '01                                                                                       Oct '03
                      -15%                                                                                                      -16%                                                                                          -3%                                           -45%
                                                                                                                                                                                                                                                                                                                                                                                                                                       -41%

                                                                                                                                                                                                                                                                            -60%
                                                                                                                                                                                                                                                                                            Southwest




                                                                                                                                                                                                                                                                                                                                                                                                                                           US Airways
                                                                                                                                                                                                                                                                                                                                                                Continental
                                                                                                                                                                                                                                                                                                             Alaska




                                                                                                                                                                                                                                                                                                                                          Northwest


                      -20%
                                                                                                                                                                                                                                                                                                                       America




                                                                                                                                                                                                                                                                                                                                                                                         American


                                                                                                                                                                                                                                                                                                                                                                                                      Delta


                                                                                                                                                                                                                                                                                                                                                                                                                         United
                                                                                                                                                                                                                                                                                                                        West
                                                                              Jul-01




                                                                                                                                                         Jul-02




                                                                                                                                                                                                                                       Jul-03
                                     Jan-01

                                                            Apr-01




                                                                                                                     Jan-02

                                                                                                                                     Apr-02




                                                                                                                                                                                                Jan-03

                                                                                                                                                                                                                   Apr-03
                                                                                               Oct-01




                                                                                                                                                                             Oct-02




                                                                                                                                                                                                                                                      Oct-03




    Figure 5: Scheduled Capacity                                                                                                                                                                                                                               Figure 6: Regional Differences at All Airports
    Percent Change in Scheduled Flights and Available Seats at                                                                                                                                                                                                 Percent Change in Available Seats at All Airports 12/03 vs. 12/00
    All Airports from 2000 (FAA Data)                                                                                                                                                                                                                          (FAA Data)
                       4%                                                                                                                                                                                                                                                                                                                                                              Midwest
                                                                                                                                                                                                                                                                                   West                                                                                                 -13%
                       0%                                                                                                                                                                                                                                                          -11%
                                                                                                                                                                                                                                                                                                                                                                                                                          Northeast
                                                                                                                                                                                                                                                                                                                                                                                                                           -19%
   Percentage




                      -4%


                      -8%


                 -12%                                                                                                                                                                                                                                                                                                                                                                                     South
                                                                                                                                                                                                                                                                                                                                                                                                           -8%
                 -16%
                                                            May-01
                                                                     Jul-01




                                                                                                                                May-02
                                                                                                                                              Jul-02




                                                                                                                                                                                                         May-03
                                                                                                                                                                                                                    Jul-03
                             Jan-01




                                                                                                        Jan-02




                                                                                                                                                                                    Jan-03




                                                                                                                                                                                                                                                     Jan-04
                                              Mar-01




                                                                                  Sep-01
                                                                                            Nov-01


                                                                                                                      Mar-02




                                                                                                                                                        Sep-02
                                                                                                                                                                  Nov-02


                                                                                                                                                                                             Mar-03




                                                                                                                                                                                                                              Sep-03
                                                                                                                                                                                                                                            Nov-03




                                                                                                                                                                                                                                                                                                                      National Average -12%
                                                                     Scheduled Flights                                                                                              Available Seats




                                                                                                                                                                                                                                                                                                                                                                                                                                           8
                                                   Airline Industry Metrics


Figure 7: Large Airports                                                         Figure 8: Length of Flight
Percent Change in Scheduled Flights and Available Seats at the                   Percent Change in Scheduled Flights by Length of Flight
31 Largest Airports 12/03 vs. 12/00 (FAA Data)                                   12/03 vs. 12/00 (FAA Data)

                                                                                                                                              8%
                                                                                             10%
 -75%   -60%   -45%    -30%   -15%    0%     15%    30%
                                                                                                                                                                 1%
                                                       Fort Lauderdale                        0%




                                                                          Percentage
                                                       Kennedy
                                                                                             -10%
                                                       Las Vegas                                                         -11%
                                                                                             -20%
                                                       Atlanta                                         -20%

                                                       Baltimore                             -30%

                                                       Cincinnati
                                                                                             -40%
                                                       Houston                                        0 to 249         250 to 499          500 to 999          1,000+

                                                       Salt Lake City                                                           Miles

                                                       Chicago O'Hare

                                                       Tampa                     Figure 9: Short Haul Flights by Type of Airline
                                                                                 Percent Change in Scheduled Flights Less Than 250 Miles by Type of
                                                       San Diego                 Airline 12/03 vs. 12/00 (FAA Data)
                                                       Orlando
                                                                                              0%
                                                       Denver

                                                       Dallas-Ft. Worth                      -10%
                                                                                                                                    -10%
                                                                          Percentage




                                                       Minneapolis
                                                                                             -20%                                                            -16%
                                                       Detroit
                                                                                             -30%
                                                       Seattle

                                                       Phoenix                               -40%

                                                       Charlotte                                           -43%
                                                                                             -50%
                                                       Philadelphia
                                                                                                          Network               Low-Fare                   All Others
                                                       Miami

                                                       Newark

                                                       Reagan National
                                                                                       Figure 10: Airline Market Share
                                                                                       Airline Market Share by Available Seats (FAA Data)*
                                                       Dulles
                                                                                             75%
                                                       LaGuardia
                                                                                                    64%
                                                                                                                       61%                 59%
                                                       Los Angeles                           60%
                                                                                                                                                              54%

                                                       Boston
                                                                                Percentage




                                                                                             45%
                                                       Honolulu
                                                                                             30%
                                                       San Francisco                                                                             20% 21%            22% 24%
                                                                                                              19%         19% 20%
                                                                                                        16%
                                                       Pittsburgh                            15%

                                                       St. Louis
                                                                                              0%
                                                                                                      12/2000            12/2001             12/2002            12/2003

          Scheduled Flights                Available Seats                        * All percentages
                                                                                    are rounded.                    Network         Low-Fare            All Others




                                                                                                                                                                          9
                                                                            Airline Industry Metrics


Figure 11: Market Share of Low-Fare Service                                                  Figure 14: RJs at Large Airports
Airline Share of Service by Available Seats, 12/03 (FAA Data)*                               RJs Share of Scheduled Flights at 31 Largest Airports 12/03 vs. 12/00
                                                                                             (FAA Data)

                                     Frontier                                                                  0%    15%        30%        45%        60%            75%
                                                           Spirit
                                       4%                   3%
                Delta Song                                              Other
                                                                                                  Cincinnati
                   5%                                                    1%

                    JetBlue                                                                          Dulles
                      6%
                                                                                            Chicago O'Hare
             American
             Trans Air
                                                                                                   Houston
                8%
                                                                                                    Newark
                 AirTran
                                                                                                   St. Louis
                   9%                                                       Southwest
                                                                              64%           Dallas-Ft. Worth
  * All percentages
    are rounded.
                                                                                              Salt Lake City

                                                                                                 LaGuardia

                                                                                            Reagan National
         Figure 12: Low-Fare Service Growth
         Airline Share of Growth by Available Seats, 12/03 vs. 12/98                                 Boston
         (FAA Data)*
                                                                                                     Atlanta

                                                  Spirit                                             Detroit
                                    Frontier       6%               Other
                                      7%                             1%
                                                                                                  Pittsburgh
                                                                             Southwest
                     AirTran                                                   37%              Minneapolis
                       9%
                                                                                                   Charlotte

American Trans                                                                                  Philadelphia
     Air
    11%                                                                                             Orlando
                             Delta Song
                                                               JetBlue                             Kennedy
                                13%
                                                                16%
                                                                                                    Phoenix
         * All percentages
           are rounded.                                                                              Denver

                                                                                            Fort Lauderdale

Figure 13: Type of Aircraft                                                                          Tampa
Percent Change in Number of Scheduled Flights by Type of Aircraft 12/03
                                                                                                     Miami
vs. 12/00 (FAA Data)
                                                                                                  Baltimore
              180%
                                                                                140%              San Diego
              150%

              120%                                                                              Los Angeles
               90%
Percentage




                                                                                              San Francisco
               60%
                                                                                                     Seattle
               30%                                           10%
                0%                                                                                Las Vegas
              -30%
                                               -19%                                               Honolulu
              -60%           -41%
              -90%
                        Turboprop         Large Jets        Piston          Regional Jets                      December 2000                December 2003




                                                                                                                                                                      10
                                                                                                                          Airline Industry Metrics


                       Figure 15: Market Share by Aircraft Type                                                                                                                        Figure 16: Arrival Delays                                             (FAA Data)
                       Percent Share of Scheduled Flights by Type of Aircraft (FAA Data)*
                                                                                                                                                                                       120,000
                          70%                                                                                                                                                                                                                                                          Oct '03 v '00
                                     59%                                                                                                                                                                                                                                                  -54%
                          60%                                         57%                      55%                                                                                     100,000
                                                                                                                          52%




                                                                                                                                                             Number of Delays
                          50%
                                                                                                                                                                                        80,000
            Percentage




                          40%
                                                                                                                                                                                        60,000
                          30%                     26%                                                                            25%
                                                                               22%
                                                                                                      20%19%                                                                            40,000
                          20%                                                15%                                                   17%
                                               10%
                          10%                               5%                        6%                       6%                            6%                                         20,000

                           0%
                                                                                                                                                                                                 0
                                               12/2000                       12/2001                 12/2002                     12/2003




                                                                                                                                                                                                                                                       May




                                                                                                                                                                                                                                                                               Aug
                                                                                                                                                                                                                                               Apr




                                                                                                                                                                                                                                                                        Jul
                                                                                                                                                                                                                       Feb




                                                                                                                                                                                                                                                                                        Sep




                                                                                                                                                                                                                                                                                                        Nov
                                                                                                                                                                                                                                                                                              Oct
                                                                                                                                                                                                                                   Mar
                                                                                                                                                                                                           Jan




                                                                                                                                                                                                                                                                Jun




                                                                                                                                                                                                                                                                                                               Dec
                                                                       Large Jets                              Regional Jets
                 * All percentages
                   are rounded.                                        Turboprop                               Piston                                                                                                         2000                           2001              2002                   2003



                   Figure 17: Departure Delays                                               (FAA Data)                                                                                Figure 18: Cancellations                                              (FAA Data)
                                                                                                                                                                                                                                                                                                    Oct '03 v '00
                       100,000                                                                                                                                                         24,000                                                                                                          -76%
                                                                                                                Oct '03 v '00
                                                                                                                   -60%                                                                                                                                    Sep '01
                                                                                                                                                                                       20,000                                                              64,947
                                                                                                                                                             Number of Cancellations




                         80,000
    Number of Delays




                                                                                                                                                                                       16,000
                         60,000

                                                                                                                                                                                       12,000
                         40,000
                                                                                                                                                                                        8,000
                         20,000
                                                                                                                                                                                        4,000

                               0
                                                                                                                                                                                             0
                                                                                                         Aug
                                                                       Apr
                                                      Feb




                                                                                May

                                                                                         Jun




                                                                                                                    Sep




                                                                                                                                       Nov
                                                              Mar




                                                                                                                                                  Dec
                                                                                                Jul




                                                                                                                            Oct
                                         Jan




                                                                                                                                                                                                                                                                               Aug
                                                                                                                                                                                                                                           Apr
                                                                                                                                                                                                                   Feb




                                                                                                                                                                                                                                                      May

                                                                                                                                                                                                                                                               Jun




                                                                                                                                                                                                                                                                                        Sep




                                                                                                                                                                                                                                                                                                        Nov
                                                                                                                                                                                                                               Mar




                                                                                                                                                                                                                                                                                                                Dec
                                                                                                                                                                                                                                                                        Jul




                                                                                                                                                                                                                                                                                              Oct
                                                                                                                                                                                                       Jan




                                                             2000                     2001                2002                     2003
                                                                                                                                                                                                                              2000                           2001                   2002               2003



                         Figure 19: Percent of Flights Arriving Late                                                                                                                    Figure 20: Percent of Flights Departing Late
                         (FAA Data)                                                                                                                                                     (FAA Data)

                         40%                                                                                                                                                           40%

                                                                  Oct '03                                      Dec '00                                                                                                                                        Oct '03                  Dec '00
                                                                   13%                                          33%                                                                                                                                            10%                      31%
                         30%                                                                                                                                                           30%
                                                                                                                                                        Percentage
Percentage




                         20%                                                                                                                                                           20%




                         10%                                                                                                                                                           10%




                         0%                                                                                                                                                             0%
                                                                                                                                                                                                                                                                              Aug
                                                                                                                                                                                                                 Feb




                                                                                                                                                                                                                                                     May




                                                                                                                                                                                                                                                                                       Sep




                                                                                                                                                                                                                                                                                                        Nov
                                                                                                                                                                                                                                         Apr




                                                                                                                                                                                                                                                                      Jul
                                                                                                                                                                                                     Jan




                                                                                                                                                                                                                                                              Jun




                                                                                                                                                                                                                                                                                                               Dec
                                                                                                                                                                                                                             Mar




                                                                                                                                                                                                                                                                                              Oct
                                                                              May




                                                                                                        Aug
                                                                     Apr




                                                                                               Jul
                                                Feb




                                                                                                                Sep




                                                                                                                                    Nov
                                                                                                                           Oct
                                                            Mar
                                   Jan




                                                                                       Jun




                                                                                                                                              Dec




                                                            2000                    2001                 2002                      2003                                                                                      2000                          2001                2002                   2003




                                                                                                                                                                                                                                                                                                              11
                                                                                                                                          Airline Industry Metrics


          Figure 21: Length of Arrival Delays                                                                            (FAA Data)                                                  Figure 22: Length of Departure Delays                                                                                                                                (FAA Data)


                    75                                                                                                                                                                         75                                                                                                                                                                                      Oct '03
                                                                                                                                                   Oct '03
                                              Jun '00                                                                                                                                                              May '00                                                                                                                                                           47 Minutes
                                                                                                                                                 43 Minutes
                                             59 Minutes                                                                                                                                                           60 Minutes
                    60                                                                                                                                                                         60
Minutes




                    45                                                                                                                                                                         45




                                                                                                                                                                                    Minutes
                    30                                                                                                                                                                         30


                    15                                                                                                                                                                         15


                         0                                                                                                                                                                      0
                                                                                                                        Aug
                                            Feb




                                                                                        May




                                                                                                                                Sep




                                                                                                                                                     Nov
                                                                        Apr




                                                                                                               Jul
                                Jan




                                                                                                    Jun




                                                                                                                                                                                                                                                                                                                                            Aug
                                                                                                                                                                 Dec
                                                            Mar




                                                                                                                                           Oct




                                                                                                                                                                                                                                   Feb




                                                                                                                                                                                                                                                                                       May




                                                                                                                                                                                                                                                                                                                                                              Sep




                                                                                                                                                                                                                                                                                                                                                                                           Nov
                                                                                                                                                                                                                                                                    Apr




                                                                                                                                                                                                                                                                                                                         Jul
                                                                                                                                                                                                              Jan




                                                                                                                                                                                                                                                                                                          Jun




                                                                                                                                                                                                                                                                                                                                                                                                                    Dec
                                                                                                                                                                                                                                                   Mar




                                                                                                                                                                                                                                                                                                                                                                           Oct
                                                           2000                               2001                       2002                      2003                                                                                         2000                                                   2001                                     2002                                     2003



          Figure 23: Arrival Delays by Airport                                                                                                                                        Figure 24: Business and Leisure Travel at the Five
          Percent Change in Arrival Delays for the First 11 Months of                                                                                                                 Busiest U.S. Airports
          2003 vs. 2002 (FAA Data)                                                                                                                                                    Percent Business Fares as a Percent of All Fares (BTS Data)

                             40%             33%                                                                                                                                               25%
                                                                                                                                                                                                              21%
                                                                                                                                                                                                                             19% 18%
                                                                                                                                                                                               20%                                                                                     18%
                             20%
                                                                                                                                                                                                                                                         16%
          Percentage




                                                                              3%                                                                                                                                                                                     14%
                                                                                                                                                                               Percentage




                                                                                                                                                                                               15%                                                                                                                                                  14%
                                                                                                                                                                                                                                                                                                                                13% 13% 12% 12% 13%
                                                                                                                                                                                                                                                                                                        12% 12%
                              0%

                                                                                                          -5%                                                                                  10%

                         -20%
                                                                                                                               -18%
                                                                                                                                                                                                5%
                                                                                                                                                     -28%
                         -40%
                                                                                                                                                                                                0%
                                                                                                                                Atlanta
                                                  Newark




                                                                               O'Hare




                                                                                                                                                     Francisco
                                                                                                          Dallas-Ft.




                                                                                                                                                                                                                1Q 2000

                                                                                                                                                                                                                                   2Q 2000

                                                                                                                                                                                                                                               3Q 2000

                                                                                                                                                                                                                                                          4Q 2000

                                                                                                                                                                                                                                                                          1Q 2001

                                                                                                                                                                                                                                                                                             2Q 2001

                                                                                                                                                                                                                                                                                                           3Q 2001

                                                                                                                                                                                                                                                                                                                     4Q 2001

                                                                                                                                                                                                                                                                                                                                 1Q 2002

                                                                                                                                                                                                                                                                                                                                                    2Q 2002

                                                                                                                                                                                                                                                                                                                                                                 3Q 2002

                                                                                                                                                                                                                                                                                                                                                                           4Q 2002

                                                                                                                                                                                                                                                                                                                                                                                       1Q 2003

                                                                                                                                                                                                                                                                                                                                                                                                          2Q 2003
                                                                                                           Worth




                                                                                                                                                        San




      Figure 25: Air Fares for Network Airlines                                                                                                                                     Figure 26: Network Airline Yield
      Average Fare for 1,000 Mile Trip, Excluding Taxes (ATA Data)                                                                                                                  Percent Change in Airline Yield from 2000 (ATA Data)

                                                                                                                                                     Oct '03                                   5%
                             $180                                                                         Oct '00
                                                                                                                                                      $124
                                                                                                           $151
                             $160                                                                                                                                                              0%
                             $140
                                                                                                                                                                                                                                                                                                                                                                                      Oct '03
          Average Fare




                                                                                                                                                                                              -5%
                                                                                                                                                                       Percentage




                             $120
                                                                                                                                                                                                                                                                                                                                                                                       -18%
                             $100
                                                                                                                                                                                              -10%
                              $80
                              $60                                                                                                                                                             -15%
                              $40
                                                                                                                                                                                              -20%
                              $20                                                                                                                                                                                                                                                             Oct '01
                                                                                                                                                                                                                                                                                               -19%
                               $0
                                                                                                                                                                                              -25%
                                                                                                                         Aug
                                                                              Apr
                                                      Feb




                                                                                              May

                                                                                                      Jun




                                                                                                                                 Sep




                                                                                                                                                     Nov
                                                                  Mar




                                                                                                                                                                 Dec
                                                                                                                  Jul




                                                                                                                                           Oct
                                      Jan




                                                                                                                                                                                                                                             Jul-01




                                                                                                                                                                                                                                                                                                                       Jul-02




                                                                                                                                                                                                                                                                                                                                                                                                 Jul-03
                                                                                                                                                                                                     Jan-01


                                                                                                                                                                                                                          Apr-01




                                                                                                                                                                                                                                                                                    Jan-02


                                                                                                                                                                                                                                                                                                        Apr-02




                                                                                                                                                                                                                                                                                                                                                              Jan-03


                                                                                                                                                                                                                                                                                                                                                                            Apr-03
                                                                                                                                                                                                                                                            Oct-01




                                                                                                                                                                                                                                                                                                                                           Oct-02




                                                                                                                                                                                                                                                                                                                                                                                                                     Oct-03




                                                                  2000                              2001                      2002                   2003




                                                                                                                                                                                                                                                                                                                                                                                                     12
                                                                                                                                                                                     Airline Industry Metrics

       Figure 27: Passenger Load Factors                                                                                                                                                                                                             Figure 28: Individual Airline Load Factors
                                                                                                                                                                                                                                                     Actual vs. Breakeven Percentages for Quarter Ending 9/03 (DOT Data)
       Actual vs. Breakeven Percentages (DOT Data)
                                                                                                                                                                                                  Actual
                           100%                                                                                                                                                                    78%                                                             120%

                                                                                                                                                                                                                                                                   100%
                           80%
                                                                                                                                                                                                                                                                    80%




                                                                                                                                                                                                                                                    Percentage
 Percentage




                           60%
                                                                                                                                                                                                                                                                    60%

                           40%                                                                                                                                                                                                                                      40%
                                                                                                                                                                                     Breakeven
                                                                                                                                                                                        75%
                                                                                                                                                                                                                                                                    20%
                           20%
                                                                                                                                                                                                                                                                     0%




                                                                                                                                                                                                                                                                                                                                                                                     American


                                                                                                                                                                                                                                                                                                                                                                                                US Airways
                                                                                                                                                                                                                                                                                                    America



                                                                                                                                                                                                                                                                                                                   Continental


                                                                                                                                                                                                                                                                                                                                        Alaska




                                                                                                                                                                                                                                                                                                                                                                   United
                                                                                                                                                                                                                                                                                          Delta




                                                                                                                                                                                                                                                                                                                                                   Northwest
                                                                                                                                                                                                                                                                             Southwest




                                                                                                                                                                                                                                                                                                     West
                            0%
                                       1Q 2000

                                                      2Q 2000

                                                                    3Q 2000

                                                                                 4Q 2000

                                                                                                1Q 2001



                                                                                                                             3Q 2001

                                                                                                                                        4Q 2001

                                                                                                                                                  1Q 2002

                                                                                                                                                             2Q 2002

                                                                                                                                                                         3Q 2002

                                                                                                                                                                                     4Q 2002

                                                                                                                                                                                                     1Q 2003

                                                                                                                                                                                                                     2Q 2003

                                                                                                                                                                                                                                    3Q 2003
                                                                                                                 2Q 2001




                                                                                              Actual                                                                     Breakeven                                                                                                                Actual                                                       Breakeven



Figure 29: Revenues vs. Expenses                                                                                                                                                                                                                      Figure 30: Selected Network and Low-Fare Airlines
Airline Operating Revenues vs. Operating Expenses (DOT Data)                                                                                                                                                                                          Operating Profit or Loss
                                                                                                                                                                                                                                                      Domestic Operations for Quarter Ending 9/03 (DOT Data)
                           $30                                                                                                                                                       Revenues                                                                                                           Millions
                                                                                                                                                                                      $21.5
                           $25                                                                                                                                                                                                                                   -$300     -$200          -$100          $0                      $100            $200            $300

                           $20                                                                                                                                                                                                                                                                                                                    $185                      Southwest
Billions




                           $15
                                                                                                                                                                                                                                                                                                                                   $87                                      Northwest
                           $10
                                                                                                                                                                                     Expenses
                                                                                                                                                                                      $21.0                                                                                                                                      $59                                        Alaska
                            $5

                            $0                                                                                                                                                                                                                                                                                              $54                                             JetBlue
                                 1Q 2000

                                                 2Q 2000

                                                                3Q 2000

                                                                              4Q 2000

                                                                                              1Q 2001



                                                                                                                             3Q 2001

                                                                                                                                        4Q 2001

                                                                                                                                                   1Q 2002

                                                                                                                                                               2Q 2002

                                                                                                                                                                           3Q 2002

                                                                                                                                                                                        4Q 2002

                                                                                                                                                                                                         1Q 2003

                                                                                                                                                                                                                          2Q 2003

                                                                                                                                                                                                                                          3Q 2003
                                                                                                                2Q 2001




                                                                                                                                                                                                                                                                                                                        $46                                                 America West

                                                                          Operating Revenues                                                                     Operating Expenses
                                                                                                                                                                                                                                                                                                                   $26                                                      AirTran

                                                                                                                                                                                                                                                                                                                                                                            American Trans
                                                                                                                                                                                                                                                                                                               $23
                                                                                                                                                                                                                                                                                                                                                                                 Air
                  Figure 31: Cost Per Gallon for Jet Fuel (ATA Data)
                                                                                                                                                                                                                                                                                                               $22                                                          Frontier
                            $1.20                                                                                                                                                              Sep '03 v '02
                                                                                                                                                                                                   +4%                                                                                                        $2                                                            Spirit
                            $1.00
                                                                                                                                                                                                                                                                                                              $1                                                            United
           Average Costs




                            $0.80

                                                                                                                                                                                                                                                                                            -$54                                                                            Continental
                            $0.60


                            $0.40
                                                                                                                                                                                                                                                                                           -$59                                                                             American


                            $0.20                                                                                                                                                                                                                                                        -$83                                                                               US Airways

                            $0.00                                                                                                                                                                                                                                         -$175                                                                                             Delta
                                                                                                                                                               Aug
                                                                      Feb




                                                                                                                           May




                                                                                                                                                                               Sep



                                                                                                                                                                                                                   Nov
                                                                                                          Apr




                                                                                                                                                  Jul
                                                    Jan




                                                                                                                                       Jun




                                                                                                                                                                                                                                    Dec
                                                                                        Mar




                                                                                                                                                                                               Oct




                                                                                2000                                             2001                            2002                                          2003




                                                                                                                                                                                                                                                                                                                                                                                                13
                                                                                                                                                         Airline Industry Metrics


       Figure 32: Debt to Investment Ratio                                                                                                                                                                        Figure 33: Debt to Investment Ratio by Airline
       Airline Debt to Investment Ratio for All Major Airlines (DOT Data)                                                                                                                                         Airline Debt to Investment Ratio for Quarter Ending 9/03
                                                                                                                                                                                                                  (DOT Data)
                   100%                                                                                                                                                                   91%
                                                                                                                                                        87% 89% 90%                                                     180%                                                                                                                                                                                                      166%
                       90%
                       80%                                                                                                                   73%                                                                        150%
                                                                                                                     68% 70%
                                                                                                          66%
                       70%
                                                                                               60%                                                                                                                      120%




                                                                                                                                                                                                     Percentage
                                                                                                                                                                                                                                                                                                                                                                                                      102%
    Percentage




                       60%                                    53% 54% 54%                                                                                                                                                                                                                                                                                  93%                    94%
                              50% 48% 48%                                                                                                                                                                                                                                                                                     89%
                       50%                                                                                                                                                                                              90%                                                                          74%
                                                                                                                                                                                                                                                                                  70%
                                                                                                                                                                                                                                                         61%
                       40%
                                                                                                                                                                                                                        60%
                       30%
                                                                                                                                                                                                                                25%
                       20%                                                                                                                                                                                              30%

                       10%
                                                                                                                                                                                                                         0%
                       0%




                                                                                                                                                                                                                                    Southwest




                                                                                                                                                                                                                                                                                                                                                            US Airways
                                                                                                                                                                                                                                                                                                                                   Continental
                                                                                                                                                                                                                                                              Alaska




                                                                                                                                                                                                                                                                                                         Northwest
                                                                                                                                                                                                                                                                                  America




                                                                                                                                                                                                                                                                                                                                                                                                             American
                                                                                                                                                                                                                                                                                                                                                                                      Delta




                                                                                                                                                                                                                                                                                                                                                                                                                                   United
                                                                                                                                                                                                                                                                                   West
                                1Q 2000

                                          2Q 2000

                                                    3Q 2000

                                                                4Q 2000

                                                                          1Q 2001

                                                                                    2Q 2001

                                                                                                3Q 2001

                                                                                                           4Q 2001

                                                                                                                      1Q 2002

                                                                                                                                  2Q 2002

                                                                                                                                              3Q 2002

                                                                                                                                                         4Q 2002

                                                                                                                                                                    1Q 2003

                                                                                                                                                                                2Q 2003

                                                                                                                                                                                           3Q 2003




     Figure 34: Airport and Airway Trust Fund                                                                                                                                                                     Figure 35: Non-Hub vs. Larger Airports
     Estimated Revenues 12/03 vs. Pre-9/11 (FAA Data)                                                                                                                                                             Percent Change in Available Seats from 1998 (FAA Data)
                                                                                                                                                                              $15.8
                 $16                                                                                                                        $14.9                                                                         20%
                                                                                                     $14.1                                                                                                                                                                                                                                                                                          Larger
                                                                    $13.3                                                                                                                                                                                                                                                                                                                           Airports
                 $14              $12.6                                                                                                                            $12.6                                                  10%
                                                                                                                                $11.9                                                                                                                                                                                                                                                                +1%
                                                                                              $11.3
                 $12                                     $10.7
                                                                                                                                                                                                                           0%
                                                                                                                                                                                                          Percentage




                             $9.8
Billions




                 $10
                                                                                                                                                                                                                         -10%
                  $8

                  $6                                                                                                                                                                                                     -20%

                  $4                                                                                                                                                                                                                                                                                                                                                                                Non-Hub
                                                                                                                                                                                                                         -30%
                                                                                                                                                                                                                                                                                                                                                                                                    Airports
                  $2                                                                                                                                                                                                                                                                                                                                                                                 -19%
                                                                                                                                                                                                                         -40%
                                                                                                                                                                                                                                                     Jul-99




                                                                                                                                                                                                                                                                                            Jul-00




                                                                                                                                                                                                                                                                                                                                                                                  Jul-02




                                                                                                                                                                                                                                                                                                                                                                                                                         Jul-03
                                                                                                                                                                                                                                Jan-99
                                                                                                                                                                                                                                            Apr-99



                                                                                                                                                                                                                                                                         Jan-00
                                                                                                                                                                                                                                                                                   Apr-00




                                                                                                                                                                                                                                                                                                                                                                                                    Jan-03
                                                                                                                                                                                                                                                                                                                                                                                                                Apr-03



                                                                                                                                                                                                                                                                                                                                                                                                                                            Jan-04
                                                                                                                                                                                                                                                                Oct-99




                                                                                                                                                                                                                                                                                                     Oct-00




                                                                                                                                                                                                                                                                                                                                                                                           Oct-02




                                                                                                                                                                                                                                                                                                                                                                                                                                   Oct-03
                                                                                                                                                                                                                                                                                                                                       Jul-01
                                                                                                                                                                                                                                                                                                                 Jan-01
                                                                                                                                                                                                                                                                                                                          Apr-01



                                                                                                                                                                                                                                                                                                                                                           Jan-02
                                                                                                                                                                                                                                                                                                                                                                         Apr-02
                                                                                                                                                                                                                                                                                                                                                  Oct-01
                  $0
                             FY 2004                          FY 2005                         FY 2006                           FY 2007                            FY 2008

                                                December 2003                                                             Pre-September 11                                                                                                                               Non-Hub Airports                                                                                     Larger Airports



   Figure 36: Regional Differences at Non-Hubs                                                                                                                                                               Figure 37: Access to Large Airports
   FigureChange
   Percent 36: Regional
                in AvailableDifferences   at Airports
                            Seats at Non-Hub Non-Hubs 12/03 vs. 12/00                                                                                                                                        Percent Change in Number of Scheduled Flights 12/03 vs. 12/00
   Percent Change in Available Seats at Non-Hub Airports 12/03 vs. 12/00
   (FAA Data)                                                                                                                                                                                                (FAA Data)
   (FAA Data)
                                                Midwest                                                                                                                                                                    0%
           West                                 Midwest
                                                 -21%
           West
           -8%                                   -21%
                                                                                                                                                                                                                          -5%                                                                        -3%
           -8%                                                    Northeast                                                                                                                                                                                                                                                                                -4%
                                                                  Northeast
                                                                    -34%
                                                                                                                                                                                                           Percentage




                                                                    -34%                                                                                                                                                 -10%
                                                                                                                                                                                                                                                     -9%

                                                                                                                                                                                                                         -15%

                                                                                                                                                         South
                                                                                                                                                                                                                         -20%                                                                                                                                                                                  -19%
                                                                                                                                                         South
                                                                                                                                                         -11%
                                                                                                                                                         -11%
                                                                                                                                                                                                                         -25%
                                                                                                                                                                                                                                         Large to Large                               Medium to Large                                            Small to Large                                      Non-Hub to
                                                               National Average -15%                                                                                                                                                                                                                                                                                                                   Large
                                                               National Average -15%




                                                                                                                                                                                                                                                                                                                                                                                                                              14
                                                                         Airline Industry Metrics


Figure 38: Type of Aircraft at Non-Hub Airports                                                                   Figure 39: Airline Market Share at Non-Hubs
Percent Change in Scheduled Flights by Type of Aircraft 12/03 vs. 12/00                                           Airline Market Share by Available Seats at Non-Hub Airports
(FAA Data)                                                                                                        (FAA Data)*

                  200%                                                                                                      100%
                                                                                161%
                                                                                                                                                                                     78%                 80%
                                                                                                                                              75%                77%
                  150%
                                                                                                                            75%




                                                                                                               Percentage
                  100%
    Percentage




                                                                                                                            50%
                   50%
                                                                11%
                                                                                                                                   21%                20%                 20%
                    0%                                                                                                      25%                                                               17%

                                                                                                                                         3%                 3%                  3%                  3%
                  -50%      -36%            -30%
                                                                                                                             0%

                  -100%
                                                                                                                                    12/2000             12/2001             12/2002             12/2003
                           Large Jets      Turboprop           Piston       Regional Jets
                                                                                                              * All percentages
                                                                                                                are rounded.                        Network            Low-Fare            All Others



        Figure 40: Essential Air Service
        Congressional Funding and Subsidized Communities (DOT Data)

                  $140                                                             140

                  $120                                                             120

                  $100                                                             100
                                                                                            EAS Communities
 Appropriations
   (Millions)




                   $80                                                     ?       80

                   $60                                                             60

                   $40                                                             40

                   $20                                                             20

                    $0                                                             0
                          FY 99    FY 00   FY 01       FY 02     FY 03 FY 04*
                                                               Appropriations
*President's proposed FY '04 budget.
                                                               Subsidized Communities




                                                                                                                                                                                                         15
The following pages contain textual versions of the graphs and
charts found in this document. These pages were not in the
original document but have been added here to assist
screenreaders.



Chart A: Percent Change in Scheduled Domestic Flights at All Airports
Between January 2000 and January 2004 (Base Year 1999)

                   2000          2001       2002       2003      2004
                 (Percent     (Percent   (Percent   (Percent   (Percent
   Month
                  Change       Change     Change     Change     Change
                from 1999)   from 1999) from 1999) from 1999) from 1999)
January             4%            7%        -7%        -7%       -4%
February            7%            4%        -8%        -9%
March               3%           2%         -9%       -10%
April               2%            3%        -7%        -9%
May                 3%           3%         -6%       -11%
June                2%            2%        -7%       -10%
July                1%            2%        -6%        -9%
August              1%            1%        -6%        -9%
September           1%           -1%        -9%       -10%
October             3%           -2%        -9%        -8%
November            1%          -14%       -11%        -9%
December            0%          -15%       -12%        -8%

Note:   January 2001 Start of 3 Quarters of Negative Gross Domestic Product
Note:   March 2001 Business Travel Begins to Decline
Note:   September 2001 9/11 Terrorist Attacks
Note:   December 2001 Flight Schedules Reach Lowest Point Down 15%
Note:   March 2003 Iraq War and Severe Acute Respiratory Syndrome
Note:   May 2003 Flight Schedules Down 9% to 11% During Summer 2003
Note:   Source: FAA Data




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Airline Industry Metrics
Figure 1: Passenger Enplanements
Percent Change in Revenue Passenger Enplanements from 2000
(ATA Data)
                     2001                2002              2003
   Month      (Percent Change     (Percent Change   (Percent Change
                 from 2000)          from 2000)        from 2000)
January               4%                -10%               -8%
February             -3%                -15%              -16%
March                -2%                -12%              -16%
April                 0%                -13%              -18%
May                  -2%                -13%              -17%
June                 -2%                -13%              -16%
July                  0%                -11%              -11%
August                3%                 -8%              -13%
September           -34%                -16%              -17%
October             -22%                -14%              -14%
November            -19%                -18%           Not Given
December            -14%                 -4%           Not Given

Note: September 2001 Enplanements Down 34 Percent
Note: October 2003 Enplanements Down 14 Percent




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 2: Capacity versus Demand
Percent Change in Available Seat Miles versus Revenue Passenger
Miles from 2000 (ATA Data)

                             2001                      2002                     2003
               2001                      2002                     2003
                          Change in                 Change in                Change in
             Change in                 Change in                Change in
  Month                    Revenue                   Revenue                  Revenue
             Available                 Available                Available
                          Passenger                 Passenger                Passenger
             Seat Miles                Seat Miles               Seat Miles
                            Miles                     Miles                    Miles
January           5%          6%           -8%         -7%         -6%          -1%
February         -1%         -2%          -12%        -11%        -14%         -11%
March            0%          0%            -9%         -7%        -10%         -10%
April             2%          0%           -7%        -10%        -11%         -12%
May              3%          -2%           -6%         -9%        -12%         -11%
June              3%         -1%           -4%         -8%         -9%          -9%
July              4%          1%           -3%         -6%         -8%          -4%
August            4%          4%           -4%         -4%         -9%          -5%
September       -19%        -32%           -8%        -12%        -11%         -10%
October         -15%        -20%           -9%        -10%        -11%          -7%
November        -14%        -17%          -10%        -14%      Not Given    Not Given
December        -10%        -12%           -6%          0%      Not Given    Not Given

Note: October 2003 Available Seat Miles Down 11 Percent
Note: October 2003 Revenue Passenger Miles Down 7 Percent




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 3: Actual Flight Operations
Percent Change in Air Route Traffic Control Center Operations
from 2000 (FAA Data)

                        2001               2002              2003
     Month         Percent Change     Percent Change   Percent Change
                    in Operations      in Operations    in Operations
January                   5%               -3%                0%
February                 -4%               -8%              -10%
March                    -2%               -7%               -7%
April                     0%               -3%               -5%
May                      -1%               -4%               -7%
June                     -3%               -4%               -6%
July                      1%               -1%               -2%
August                    0%               -4%               -6%
September               -16%               -5%               -5%
October                  -8%               -4%               -3%
November                 -8%               -7%            Not Given
December                 -5%               -1%            Not Given

Note: September 2001 Actual Flight Operations Down 16 Percent
Note: October 2003 Actual Flight Operations Down 3 Percent

Figure 4: Larger Airlines Actual Arrivals
Percent Change in Actual Arrivals by Airline October 2003 versus October 2000
(FAA Data)

                        2003
                     Percentage
     Airline          Change
Southwest                6%
Alaska                   6%
America West            -6%
Northwest               -9%
Continental            -20%
American               -22%
Delta                  -23%
United                 -24%
US Airways             -41%


Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 5: Scheduled Capacity
Percent Change in Scheduled Flights and Available Seats at
All Airports from 2000 (FAA Data)
                        Percent       Percent
       Month           Change in     Change in
                        Flights        Seats
January 2001               2%            3%
February 2001             -3%           -2%
March 2001                -1%            1%
April 2001                 1%            1%
May 2001                   0%            1%
June 2001                  0%            1%
July 2001                 1%             2%
August 2001               0%            1%
September 2001            -1%            0%
October 2001              -5%           -4%
November 2001            -15%          -15%
December 2001            -14%          -14%
January 2002             -11%          -10%
February 2002            -14%          -13%
March 2002               -11%          -10%
April 2002                -9%           -8%
May 2002                  -9%           -8%
June 2002                 -9%           -7%
July 2002                 -7%           -6%
August 2002               -8%           -7%
September 2002           -10%          -10%
October 2002             -11%          -11%
November 2002            -12%          -12%
December 2002            -12%          -12%
January 2003             -11%          -11%
February 2003            -15%          -15%
March 2003               -12%          -12%
April 2003               -11%          -12%
May 2003                 -14%          -15%
June 2003                -11%          -13%
July 2003                 -9%          -11%
August 2003              -10%          -13%
September 2003           -10%          -13%
Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
October 2003             -10%           -13%
November 2003            -11%           -13%
December 2003             -8%           -11%
January 2004              -8%            -9%
February 2004             -8%            -9%

Figure 6: Regional Differences at All Airports
Percent Change in Available Seats at All Airports December 2003 versus December
2000 (FAA Data)
                                                         Percent Change
                          Region                          in Available
                                                              Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,            -19%
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,        -13%
Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,           -11%
Utah, Washington, Wyoming)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                               -8%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
National Average                                              -12%




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 7: Large Airports
Percent Change in Scheduled Flights and Available Seats at the
31 Largest Airports December 2003 versus December 2000 (FAA Data)

 Largest Airports      Percent Change        Percent Change in
                          in Flights          Available Seats
Fort Lauderdale               8%                    16%
Kennedy                     -17%                     7%
Las Vegas                    -2%                     1%
Atlanta                       5%                    -2%
Baltimore                   -11%                    -2%
Cincinnati                   17%                    -2%
Houston                       3%                    -3%
Salt Lake City               12%                    -4%
Chicago O’Hare                7%                    -4%
Tampa                       -13%                    -5%
San Diego                    -9%                    -5%
Orlando                     -11%                    -5%
Denver                        1%                    -6%
Dallas-Ft. Worth             -2%                    -7%
Minneapolis                  3%                     -8%
Detroit                       2%                    -8%
Seattle                     -16%                    -8%
Phoenix                     -10%                    -8%
Charlotte                    -7%                   -10%
Philadelphia                 -8%                   -12%
Miami                       -23%                   -13%
Newark                       -8%                   -15%
Reagan National              -2%                   -18%
Dulles                      -29%                   -18%
LaGuardia                   -17%                   -20%
Los Angeles                 -26%                   -23%
Boston                      -28%                   -26%
Honolulu                    -22%                   -26%
San Francisco               -23%                   -28%
Pittsburgh                  -22%                   -34%
St. Louis                   -43%                   -59%




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 8: Length of Flight
Percent Change in Scheduled Flights by Length of Flight
December 2003 versus December 2000 (FAA Data)

                                 2003
   Range in Miles          Percent Change
                              in Flights
0 to 249 miles                  -20%
250 to 499 miles                -11%
500 to 999 miles                 8%
1,000 miles or more              1%
Figure 9: Short Haul Flights by Type of Airline
Percent Change in Scheduled Flights Less Than 250 Miles by
Type of Airline December 2003 versus December 2000 (FAA Data)

                                2003
 Type of Air Carrier       Percent Change
                              by Type
Network                         -43%
Low-Fare                        -10%
All Others                      -16%
Figure 10: Airline Market Share
Airline Market Share by Available Seats (FAA Data)
  Carrier Type      December    December     December     December
                      2000        2001         2002         2003
Network               64%         61%          59%          54%
Low-Fare              16%         19%          20%          22%
All Others            19%         20%          21%          24%
Note: All percentages are rounded.




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 11: Market Share of Low-Fare Service
Airline Share of Service by Available Seats, December 2003 (FAA Data)

                            Market Share
   Low-Fare Airline
                             Percentage
Southwest                       64%
AirTran                          9%
American Trans Air              8%
JetBlue                          6%
Delta Song                       5%
Frontier                         4%
Spirit                           3%
Other                            1%
Note: All Percentages are rounded.

Figure 12: Low-Fare Service Growth
Airline Share of Growth by Available Seats, December 2003 versus December 1998
(FAA Data)
                          Service Growth
  Low-Fare Airline
                            Percentages
Southwest                      37%
JetBlue                        16%
Delta Song                     13%
American Trans Air             11%
AirTran                         9%
Frontier                        7%
Spirit                          6%
Other                           1%
Note: All percentages are rounded.

Figure 13: Type of Aircraft
Percent Change in Number of Scheduled Flights by Type of Aircraft
December 2003 versus December 2000 (FAA Data)
    Type of        Percent Change in
    Aircraft            Flights
Turboprop                -41%
Large Jets               -19%
Piston                    10%
Regional Jets            140%

Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 14: Regional Jets at Large Airports
Regional Jets Share of Scheduled Flights at 31 Largest Airports December 2003
versus December 2000 (FAA Data)

 Largest Airports      December 2000              December 2003
                         Percentage                 Percentage
                       Share of Flights           Share of Flights
Cincinnati                  58%                        72%
Dulles                      19%                        44%
Chicago O’Hare              20%                        41%
Houston                     16%                        39%
Newark                      11%                        38%
St. Louis                    7%                        36%
Dallas-Ft. Worth             8%                        35%
Salt Lake City              12%                        34%
LaGuardia                   22%                        30%
Reagan National              7%                        29%
Boston                       9%                        29%
Atlanta                      9%                        28%
Detroit                      2%                        25%
Pittsburgh                   3%                        24%
Minneapolis                  2%                        21%
Charlotte                    5%                        20%
Philadelphia                 6%                        19%
Orlando                      5%                        19%
Kennedy                      5%                        16%
Phoenix                      5%                        14%
Denver                       2%                        8%
Fort Lauderdale              2%                        6%
Tampa                        0%                        6%
Miami                        4%                        6%
Baltimore                    1%                        6%
San Diego                    0%                        5%
Los Angeles                  0%                        3%
San Francisco                0%                        3%
Seattle                      0%                        3%
Las Vegas                    1%                        1%
Honolulu                     0%                        0%



Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 15: Market Share by Aircraft Type
Percent Share of Scheduled Flights by Type of Aircraft (FAA Data)

                    December       December       December   December
  Aircraft Type
                      2000           2001           2002       2003
Large Jets            59%            57%            55%        52%
Regional Jets         10%            15%            20%        25%
Turboprop             26%            22%            19%        17%
Piston                 5%             6%             6%         6%

Note: All percentages are rounded.

Figure 16: Arrival Delays (FAA Data)

                  2000        2001          2002        2003
                Arrival      Arrival       Arrival     Arrival
  Month         Delays       Delays        Delays      Delays
January          71,485      69,926        49,657      37,552
February         69,499      72,135        36,355      45,191
March            71,757      73,004        57,281      41,095
April            74,655      61,285        46,842      29,885
May              77,400      56,141        47,038      37,305
June            100,115      72,641        56,011      44,507
July             93,399      69,392        54,355      52,063
August           96,550      76,237        47,160      54,001
September        66,251      38,967        30,598      33,266
October          75,543      39,694        41,050      34,422
November         81,731      38,464        37,357     Not Given
December        105,180      52,064        54,108     Not Given

Note: October 2003 versus October 2000 Down 54 Percent




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 17: Departure Delays (FAA Data)

                 2000           2001        2002           2003
               Departure      Departure   Departure      Departure
  Month         Delays         Delays      Delays         Delays
January         59,344         62,032      40,524         30,598
February        59,316         61,044      30,542         36,228
March           61,678         65,503      49,324         32,712
April           63,372         53,421      37,751         24,496
May             67,571         47,207      37,706         28,216
June            90,115         63,980      49,880         36,561
July            85,049         62,108      49,973         44,590
August          85,760         67,209      42,680         45,359
September       55,667         39,229      25,672         24,698
October         63,742         41,444      32,072         25,794
November        70,997         35,169      28,495        Not Given
December        98,386         48,710      47,855        Not Given

Note: October 2003 versus October 2000 Down 60 Percent

Figure 18: Cancellations (FAA Data)

                  2000              2001             2002            2003
  Month       Cancellations     Cancellations     Cancellations   Cancellations
January          18,512            12,077            4,199           2,813
February         11,477            10,706            2,361           8,873
March             7,585            11,753            3,063           3,743
April             8,853             7,086            2,265           2,096
May              12,835             5,796            2,399           1,268
June             14,407            10,135            4,621           1,432
July             11,985             7,189            3,659           2,919
August           11,538             8,528            2,834           4,006
September         8,057            64,947            1,861           3,450
October           7,977             2,966            2,188           1,905
November          8,150             2,371            1,767         Not Given
December         21,333             2,161            4,057         Not Given

Note: October 2003 versus October 2000 Down 76 Percent
Note: September 2001 Cancellations Totaled 64,947


Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 19: Percent of Flights Arriving Late
(FAA Data)

  Month         2000       2001         2002        2003
January         23%        21%          18%         14%
February        23%        24%          14%         19%
March           22%        22%          20%         15%
April           23%        19%          17%         12%
May             24%        17%          16%         14%
June            32%        22%          20%         17%
July            28%        21%          18%         19%
August          29%        22%          16%         20%
September       21%        16%          11%         13%
October         23%        14%          14%         13%
November        26%        14%          14%       Not Given
December        33%        19%          20%       Not Given

Note: October 2003 13 Percent of Flights Arrived Late
Note: December 2000 33 Percent of Flights Arrived Late

Figure 20: Percent of Flights Departing Late
(FAA Data)

  Month         2000       2001         2002         2003
January         19%        19%          15%          11%
February        20%        21%          12%          15%
March           19%        20%          17%          12%
April           20%        17%          14%          10%
May             21%        14%          13%          11%
June            28%        20%          17%          14%
July            26%        18%          17%          16%
August          26%        20%          14%          17%
September       17%        16%           9%          10%
October         19%        15%          11%          10%
November        22%        13%          11%        Not Given
December        31%        18%          18%        Not Given

Note: October 2003 10 Percent of Flights Departed Late
Note: December 2000 31 Percent of Flights Departed Late


Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 21: Length of Arrival Delays (FAA Data)
                  2000           2001           2002           2003
  Month       (In Minutes)   (In Minutes)   (In Minutes)   (In Minutes)
January            49             47             44             45
February           51             50             41             48
March              50             49             44             46
April              52             51             47             46
May                58             47             47             47
June               59             57             55             46
July               58             52             51             56
August             55             56             49             56
September          50             55             47             48
October            49             44             42             43
November           48             43             43         Not Given
December           54             42             53         Not Given
Note: October 2003 Arrivals Delayed 43 Minutes
Note: June 2000 Arrivals Delayed 59 Minutes

Figure 22: Length of Departure Delays (FAA Data)

              2000               2001           2002           2003
  Month   (In Minutes)       (In Minutes)   (In Minutes)   (In Minutes)
January        51                 49             46             46
February       53                 52             43             48
March          53                 51             45             47
April          54                 53             49             47
May            60                 49             48             49
June           59                 58             54             48
July           60                 54             51             56
August         56                 57             50             58
September      52                 55             48             49
October        52                 42             45             47
November       50                 44             46         Not Given
December       55                 42             52         Not Given
Note: October 2003 Departures Delayed 47 Minutes
Note: May 2000 Departures Delayed 60 Minutes



Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 23: Arrival Delays by Airport
Percent Change in Arrival Delays for the First 11 Months of
2003 versus 2002 (FAA Data)


        Airport             Percent Change
Newark                            33%
O’Hare                             3%
Dallas-Ft. Worth                   -5%
Atlanta                           -18%
San Francisco                     -28%

Figure 24: Business and Leisure Travel at the Five Busiest U.S. Airports
Percent Business Fares as a Percent of All Fares (BTS Data)

        Quarter            Percent of Business Fares
First Quarter 2000                    21%
Second Quarter 2000                   19%
Third Quarter 2000                    18%
Fourth Quarter 2000                   16%
First Quarter 2001                    14%
Second Quarter 2001                   18%
Third Quarter 2001                    12%
Fourth Quarter 2001                   12%
First Quarter 2002                    13%
Second Quarter 2002                   13%
Third Quarter 2002                    12%
Fourth Quarter 2002                   12%
First Quarter 2003                    13%
Second Quarter 2003                   14%




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 25: Air Fares for Network Airlines
Average Fare for 1,000 Mile Trip, Excluding Taxes (ATA Data)
                2000        2001         2002        2003
               Average     Average      Average     Average
  Month       Fare Cost   Fare Cost    Fare Cost   Fare Cost
January         $143        $148         $124        $119
February        $151        $151         $130        $123
March           $149        $145         $126        $121
April           $147        $143         $126        $120
May             $147        $136         $123        $118
June            $145        $133         $120        $118
July            $134        $122         $111        $113
August          $139        $121         $110        $115
September       $147        $120         $121        $123
October         $151        $123         $124        $124
November        $149        $125         $120      Not Given
December        $139        $119         $117      Not Given
Note: October 2003 Air Fare $124
Note: October 2000 Air Fare $151

Figure 26: Network Airline Yield
Percent Change in Airline Yield from 2000 (ATA Data)
                     2001                   2002                2003
  Month        Percent Change         Percent Change      Percent Change
                   in Yield               in Yield            in Yield
January               4%                   -13%                -16%
February              0%                   -13%                -18%
March                -3%                   -16%                -19%
April                -3%                   -14%                -19%
May                  -7%                   -16%                -20%
June                 -9%                   -17%                -19%
July                 -9%                   -18%                -16%
August              -13%                   -21%                -17%
September           -18%                   -17%                -16%
October             -19%                   -18%                -18%
November            -16%                   -20%             Not Given
December            -15%                   -16%             Not Given


Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Note: October 2001 Yield Down 19 Percent
Note: October 2003 Yield Down 18 Percent

Figure 27: Passenger Load Factors
Actual versus Breakeven Percentages (DOT Data)

                            Actual         Breakeven
       Quarter            Load Factor     Load Factor
First Quarter 2000           69%             68%
Second Quarter 2000          76%             67%
Third Quarter 2000           76%             71%
Fourth Quarter 2000          70%             72%
First Quarter 2001           68%             74%
Second Quarter 2001          74%             76%
Third Quarter 2001           72%             88%
Fourth Quarter 2001          66%             90%
First Quarter 2002           70%             85%
Second Quarter 2002          74%             83%
Third Quarter 2002           74%             87%
Fourth Quarter 2002          70%             85%
First Quarter 2003           69%             84%
Second Quarter 2003          75%             80%
Third Quarter 2003           78%             75%

Note: Third Quarter 2003 Actual Load Factor 78 Percent
Note: Third Quarter 2003 Breakeven Load Factor 75 Percent

Figure 28: Individual Airline Load Factors
Actual versus Breakeven Percentages for Quarter Ending September 2003
(DOT Data)

                            Actual         Breakeven
       Airline            Load Factor     Load Factor
Southwest                    71%             61%
Delta                        78%             69%
America West                 80%             75%
Continental                  81%             76%
Alaska                       73%             68%
Northwest                    81%             78%
United                       80%             80%

Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
American                      76%             79%
US Airways                    77%             83%

Figure 29: Revenues versus Expenses
Airline Operating Revenues versus Operating Expenses (DOT Data)
                           Operating Revenues       Operating Expenses
        Quarter
                               In Billions              In Billions
First Quarter 2000                $22.6                    $21.8
Second Quarter 2000               $25.4                    $22.6
Third Quarter 2000                $25.9                    $24.0
Fourth Quarter 2000               $24.2                    $24.1
First Quarter 2001                $23.3                    $24.1
Second Quarter 2001               $24.3                    $25.0
Third Quarter 2001                $21.2                    $24.4
Fourth Quarter 2001               $16.6                    $20.9
First Quarter 2002                $18.2                    $20.9
Second Quarter 2002               $20.4                    $21.9
Third Quarter 2002                $20.2                    $22.6
Fourth Quarter 2002               $18.9                    $21.8
First Quarter 2003                $18.9                    $22.1
Second Quarter 2003               $19.9                    $20.7
Third Quarter 2003                $21.5                    $21.0
Note: Third Quarter 2003 Operating Revenues Were $21.5 Billion
Note: Third Quarter 2003 Operating Expenses Were $21.0 Billion

Figure 30: Selected Network and Low-Fare Airlines
Operating Profit or Loss
Domestic Operations for Quarter Ending September 2003 (DOT Data)

                           Profit or Loss
         Airline
                           (In Millions)
Southwest                      $185
Northwest                       $87
Alaska                          $59
JetBlue                         $54
America West                    $46
AirTran                         $26
American Trans Air              $23
Frontier                        $22
Spirit                           $2

Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
United                           $1
Continental                     -$54
American                        -$59
US Airways                      -$83
Delta                          -$175

Figure 31: Cost Per Gallon for Jet Fuel (ATA Data)
             2000                2001                2002           2003
  Month
          Average Cost        Average Cost        Average Cost   Average Cost
January      $0.70               $0.86               $0.60          $0.84
February     $0.73               $0.85               $0.62          $0.88
March        $0.75               $0.80               $0.62          $1.05
April        $0.74               $0.77               $0.69          $0.83
May          $0.72               $0.78               $0.70          $0.76
June         $0.70               $0.81               $0.67          $0.75
July         $0.77               $0.77               $0.71          $0.78
August       $0.78               $0.77               $0.72          $0.83
September    $0.86               $0.79               $0.77          $0.80
October      $0.89               $0.71               $0.81        Not Given
November     $0.89               $0.66               $0.77        Not Given
December     $0.91               $0.57               $0.76        Not Given
Note: September 2003 Jet Fuel Cost Was 4 Percent Higher Than September 2002

Figure 32: Debt to Investment Ratio
Airline Debt to Investment Ratio for All Major Airlines (DOT Data)

                              Ratio
        Quarter
                           (Percentage)
First Quarter 2000             50%
Second Quarter 2000            48%
Third Quarter 2000             48%
Fourth Quarter 2000            53%
First Quarter 2001             54%
Second Quarter 2001            54%
Third Quarter 2001             60%
Fourth Quarter 2001            66%
First Quarter 2002             68%
Second Quarter 2002            70%
Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Third Quarter 2002             73%
Fourth Quarter 2002            87%
First Quarter 2003             89%
Second Quarter 2003            90%
Third Quarter 2003             91%

Figure 33: Debt to Investment Ratio by Airline
Airline Debt to Investment Ratio for Quarter Ending September 2003
(DOT Data)

                      Ratio
    Airlines
                   (Percentage)
Southwest              25%
Alaska                 61%
America West           70%
Northwest              74%
Continental            89%
US Airways             93%
Delta                  94%
American              102%
United                166%

Figure 34: Airport and Airway Trust Fund
Estimated Revenues December 2003 versus Pre-September 11, 2001 (FAA Data)

                December 2003        Pre-September 11
 Fiscal Year
                 (In Billions)          (In Billions)
    2004             $9.8                   $12.6
    2005             $10.7                  $13.3
    2006             $11.3                  $14.1
    2007             $11.9                  $14.9
    2008             $12.6                  $15.8




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 35: Non-Hub versus Larger Airports
Percent Change in Available Seats from 1998 (FAA Data)


                   Non-Hub Larger
     Month
                   Airports Airports

January 1999          -2%         5%
February 1999          0%         6%
March 1999             0%         7%
April 1999             0%         7%
May 1999               0%         9%
June 1999             -1%         8%
July 1999             -2%         7%
August 1999           0%         8%
September 1999         0%         7%
October 1999           0%         8%
November 1999          3%         8%
December 1999          2%         7%
January 2000          -2%        10%
February 2000          4%        15%
March 2000             0%        12%
April 2000            -2%        12%
May 2000               1%        14%
June 2000             -2%        11%
July 2000             -3%         9%
August 2000           -3%        11%
September 2000        -3%         9%
October 2000          -1%        12%
November 2000         0%         11%
December 2000         -4%        10%
January 2001          -4%        14%
February 2001         -5%        13%
March 2001            -6%        13%
April 2001            -7%        14%
May 2001              -5%        15%
June 2001             -8%        12%
July 2001             -8%        12%
August 2001           -8%        13%
September 2001       -10%        10%
October 2001         -10%         8%
November 2001        -18%        -5%

Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
December 2001        -19%        -6%
January 2002         -17%         0%
February 2002        -17%         0%
March 2002           -17%         1%
April 2002           -15%         3%
May 2002             -14%         4%
June 2002            -16%         3%
July 2002            -15%         4%
August 2002          -13%         3%
September 2002       -18%        -1%
October 2002         -18%         0%
November 2002        -18%        -2%
December 2002        -19%        -4%
January 2003         -21%        -1%
February 2003        -19%        -1%
March 2003           -19%        -1%
April 2003           -20%        -1%
May 2003             -20%        -4%
June 2003            -19%        -3%
July 2003            -18%        -2%
August 2003          -17%        -3%
September 2003       -19%        -5%
October 2003         -18%        -3%
November 2003        -19%        -3%
December 2003        -17%        -3%
January 2004         -19%         1%

Note: January 2004 Larger Airports Up 1 Percent
Note: January 2004 Non-Hub Airports Down 19 Percent




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Figure 36: Regional Differences at Non-Hubs
Percent Change in Available Seats at Non-Hub Airports
December 2003 versus December 2000 (FAA Data)

                                                           Percent Change
                          Region                            in Available
                                                                Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,             -34%
Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,         -21%
Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                               -11%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,             -8%
Utah, Washington, Wyoming)
National Average                                               -15%

Figure 37: Access to Large Airports
Percent Change in Number of Scheduled Flights December 2003 versus December
2000 (FAA Data)

                                          Percent Change
            Hub Access                       In Flights
Large to Large                                  -9%
Medium to Large                                 -3%
Small to Large                                  -4%
Non-Hub to Large                               -19%

Figure 38: Type of Aircraft at Non-Hub Airports
Percent Change in Scheduled Flights by Type of Aircraft
December 2003 versus December 2000 (FAA Data)


 Aircraft Type           Percent Change
Large Jets                    -36%
Turboprop                     -30%

Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
Piston                         11%
Regional Jets                 161%

Figure 39: Airline Market Share at Non-Hubs
Airline Market Share by Available Seats at Non-Hub Airports
(FAA Data)

                      December       December     December   December
  Airline Market
                        2000           2001         2002       2003
Network                 21%            20%          20%        17%
Low-Fare                 3%             3%           3%         3%
All Others              75%            77%          78%        80%

Note: All Percentages are rounded.

Figure 40: Essential Air Service
Congressional Funding and Subsidized Communities (DOT Data)

                                                               Number of
                                        Appropriations
             Fiscal Year                                      Communities
                                         In Millions
                                                               Subsidized
1999                                          $50                 100
2000                                          $50                 106
2001                                          $50                 115
2002                                         $113                 123
2003                                         $113                 125
President’s Proposed Budget 2004             $50              Undetermined




Published Metrics Report (508 Compl), 1-8-04[2]
01/08/2004
